November 18, 2002
Audit Report No. 03-006


DSC Procedures for Addressing
Deviations from Business Plans by
Newly Established Banks
                            TABLE OF CONTENTS


BACKGROUND                                             2

     New Bank Application Process                      2
     Application Review Process                        3
     Examination Review Process                        4
     Available Corrective Measures                     5
     Newly Chartered State Non-Member Institutions     6

RESULTS OF AUDIT                                       6

FDIC MONITORING OF CHANGES IN NEWLY CHARTERED
 BANKS’ BUSINESS PLANS                                 7

ALTERNATIVE PROCESSES FOR ESTABLISHING NEW BANKS      12

Recommendation                                        17

STATUTORY AMENDMENTS IMPACTING REGULATORY OVERSIGHT   17

Recommendation                                        19

CORPORATION COMMENTS AND OIG EVALUATION               19

APPENDIX I:      OBJECTIVE, SCOPE, AND METHODOLOGY    20

APPENDIX II:     BEST PRACTICES                       22

APPENDIX III:    APPLICATION COMPARISON CHART         23

APPENDIX IV:     CORPORATION COMMENTS                 25
Federal Deposit Insurance Corporation                                                         Office of Audits
Washington, D.C. 20434                                                            Office of Inspector General




   DATE:                         November 18, 2002

   TO:                           Michael J. Zamorski, Director
                                 Division of Supervision and Consumer Protection



   FROM:                         Russell A. Rau
                                 Assistant Inspector General for Audits


   SUBJECT:                      DSC Procedures for Addressing Deviations from Business Plans
                                 by Newly Established Banks (Audit Report No. 03-006)


   The Federal Deposit Insurance Corporation (FDIC) Office of Inspector General (OIG) has
   assessed the procedures followed by Division of Supervision and Consumer Protection (DSC)
   case managers and examiners when newly established banks deviate from their business plans.
   You requested this review and expressed concern that managers of some newly chartered banks
   were not adhering to the business plans approved by the FDIC during the new bank application
   process. You were especially concerned with Internet banks and how those institutions may
   have deviated from approved business plans. Furthermore, you were interested in what measures
   DSC was taking when such deviations were encountered.

   The objective of our audit was to determine whether the procedures used by DSC case managers
   and examiners were adequate for evaluating and addressing new banks that have departed from
   initial business plan projections subsequent to their application for approval from the FDIC.
   However, we also observed insurance risk exposures related to the transfer of bank charters.
   New banks, in effect, can be established through various regulatory and financial transactions
   that allow existing insured depository institutions to transfer their charters and insurance to new
   owners. When a new bank is created through the normal formation process, regulatory approval
   is sought through the application process for federal deposit insurance. However, other various
   transactions including mergers, acquisitions, assumptions, and changes in control are subject, by
   statute, to a less comprehensive application process because a new application for deposit
   insurance is not required. We expanded our scope to address this situation.

   Additional details on our scope, objective, and methodology are contained in Appendix I.
BACKGROUND

New Bank Application Process

The Board of Directors of the FDIC is charged by Sections 5 and 6 of the Federal Deposit
Insurance Act with the responsibility of acting on applications for federal deposit insurance by
all depository institutions. The FDIC must evaluate each application for deposit insurance with
consideration given to the following seven statutory factors:

    •   the financial history and condition of the depository institution;
    •   the adequacy of the depository institution’s capital structure;
    •   the future earnings prospects of the depository institution;
    •   the general character and fitness of the management of the depository institution;
    •   the risk presented by such depository institution to the Bank Insurance Fund or the
        Savings Association Insurance Fund;1
    •   the convenience and needs of the community to be served by the depository institution;
        and
    •   whether the depository institution’s corporate powers are consistent with the purpose of
        the Act.

Application packages submitted to the FDIC require a detailed business plan that establishes a
financial institution’s goals and objectives, and should provide an in-depth analysis of how the
business will organize its resources to meet its goals and how the institution will measure its
progress. The business plan should demonstrate that the applicant has adequate policies,
procedures, and management expertise to operate the proposed depository institution in a safe
and sound manner. The plan should also demonstrate that the bank has the ability to attract and
maintain adequate capital and reasonable market share, has good earnings prospects, and is
responsive to community needs.

As part of the application process, the FDIC's DSC conducts a field investigation2 that addresses
each of the seven statutory factors. The appropriate DSC Regional Director has authority, with
several exceptions, to approve a de novo3 bank application for federal deposit insurance.
However, any recommendation to deny an application must be approved by the FDIC's Board of
Directors.

The FDIC Statement of Policy on Applications for Deposit Insurance, effective October 1, 1998,
addresses situations where bank management deviates from the business plan approved by the
FDIC. According to the Statement of Policy, any significant deviation from the business plan
within the first 3 years of operation must be reported by the insured depository institution to the


1
  The FDIC operates two insurance funds: the Bank Insurance Fund (BIF) insures deposits in commercial banks and
savings banks, and the Savings Association Insurance Fund (SAIF) insures deposits in federal savings and loan
associations, federal savings banks, and state savings and loans.
2
  A field investigation is usually required before a federal deposit insurance application can be acted on by the
regional office.
3
  A de novo institution is defined as a newly chartered bank.


                                                        2
primary federal regulator4 before consummation of the change. This requirement is significant
because the FDIC relies on the information contained in the applicant's business plan to assess
risk presented to the insurance funds; deviations from the business plan could increase risk to the
funds.

On April 7, 2000, DSC issued a Regional Directors Memorandum entitled Nonstandard
Condition to Orders for Federal Deposit Insurance. The memorandum provides guidance on
implementation of a nonstandard condition to Orders5 for federal deposit insurance that requires
prior notification to the FDIC of significant deviations from the banks’ approved business plans.
In particular, the memorandum states that there have been situations where newly insured
depository institutions have “drastically changed” from the business plan approved as part of the
application for federal deposit insurance. The condition as described in the memorandum
specifies “…that the bank shall operate within the parameters of the business plan submitted to
and approved by the FDIC. Furthermore, during the first three years of operation, bank
management shall notify the Regional Director of any proposed major deviation or material
change from the submitted plan at least 60 days before consummation of the change.”

Application Review Process

In accordance with the FDIC Case Managers Procedures Manual, case managers are assigned
the responsibility for reviewing, evaluating, and processing all applications filed by institutions
within their assigned caseloads. In processing insurance applications, case managers are
responsible, in part, for determining the need for and arranging field investigations, reviewing
the completed Report of Investigation and following up with applicants on any new concerns,
and completing the Summary of Investigation.6 If the region approves the application under
delegated authority, the case manager must also prepare the Order for federal deposit insurance.
If the region does not have delegated authority, the case manager must submit all of the related
documentation to the Risk Management and Applications Section of the Washington office.
Once the applicant provides evidence that all the conditions of the Order have been satisfied, and
the chartering authority has approved the institution to open, the case manager will notify the
FDIC’s Executive Secretary Section of the Legal Division, which will then notify the new
institution of the effective date of its insured status.

When the FDIC is the processing agency for applications involving mergers and changes in
control, case managers are responsible, in part, for completing the Summary of Investigation. In
4
  The primary federal regulator is a financial institution’s principal supervisory agency. The FDIC is the primary
regulator of state non-member banks; the Office of the Comptroller of the Currency is the primary regulator of
national banks; the Office of Thrift Supervision is the primary regulator for savings associations and savings and
loan associations; and the Board of Governors of the Federal Reserve System (Federal Reserve Board) is the
primary regulator of state member banks.
5
  Orders for insurance include standard and nonstandard conditions that may be included as a matter of routine in
approving an application. Standard conditions can be imposed whether or not the applicant has agreed to their
inclusion. Nonstandard conditions need to be agreed to by the applicant. However, if an institution does not agree to
a nonstandard condition, the FDIC takes the position that the FDIC’s Board of Directors has the authority to impose
a nonstandard condition.
6
  A Summary of Investigation - Federal Deposit Insurance - a form that must be completed by case managers for all
applications for deposit insurance. The form summarizes the findings of the investigation as related to each of the
statutory factors and concludes with a statement as to whether the findings are “favorable” or “unfavorable.”


                                                         3
mergers, if a disapproval is recommended, the region’s recommendation and Summary of
Investigation is forwarded to the Washington Office. If the regional office recommends an
approval, an approval letter, the appropriate Order, and a letter to the U.S. Attorney General
advising of the approval is prepared. In notices of changes in control, if a disapproval of the
proposed acquisition of control is warranted, a copy of the notice and the Summary of
Investigation is sent to the Washington Office for action. In cases where the transaction is
approved, a letter is sent to the applicant conveying the FDIC’s intent not to disapprove the
transaction.

In accordance with the FDIC Case Managers Procedures Manual, Orders for federal deposit
insurance allow the imposition of standard and nonstandard conditions. Standard and
nonstandard conditions are used to impose restrictions and to establish operating parameters and
controls on the institution for a set period of time, usually up to the first 3 years of operation.
Standard conditions may include implementation of an accrual accounting system, the need for
an annual audit, amount and type of capital, changes in ownership or management before
opening, and other conditions relating to the findings on the statutory factors in Section 6 of the
FDI Act. All other imposed conditions not contained within Section 303.26(d) or 303.2(ff) of
the FDIC Rules and Regulations would be considered nonstandard.

One example of a nonstandard condition is the requirement for newly insured depository
institutions to provide prior notification of any significant deviations from the business plan
within the first 3 years of operation to its primary federal regulator. Although this requirement
exists within the FDIC Statement of Policy on Applications for Deposit Insurance, the FDIC
requires a nonstandard condition to Orders for federal deposit insurance to ensure that
institutions adhere to this guidance and to provide the FDIC an opportunity to comment on
changes in business plans. Conditions can also be placed when approving merger transactions.
Section 303.67 of the FDIC Rules and Regulations retains the FDIC Board of Directors’
authority to approve applications for merger transactions where the applicant does not agree in
writing to comply with any conditions other than the standard conditions defined in Section
303.2 (ff) which may be imposed without the applicant’s written consent.

Examination Review Process

DSC's Manual of Examination Policies states that newly chartered and insured institutions are to
have a limited scope examination (visitation) within the first 6 months of operation and a full
scope examination within the first 12 months of operation. Subsequent to the first examination
and through the third year of operation, at least one examination should be performed each year.

In accordance with the DSC Manual of Examination Policies, examiners are assigned the
responsibility for assessing the capability and performance of management and the board of
directors of a financial institution by assigning a management rating based upon, but not limited
to, an assessment of the institution’s compliance with laws and regulations. As a result,
examiners are charged with the responsibility of reviewing a bank’s compliance with all
applicable FDIC Statements of Policy. In accordance with the FDIC Statement of Policy on
Applications for Deposit Insurance, any significant deviation from the business plan within the
first 3 years of operation must be reported by the insured depository institution to the primary



                                                 4
federal regulator before consummation of the change. Based on this rule, examiners are
expected to review for and report any potential contravention to this statement of policy.

The DSC Manual of Examination Policies also requires examiners to determine whether an
institution has a profit plan or budget for the current and/or next operating year, and examiners
are required to evaluate the adequacy of management’s budget and other earnings analysis
reports at each examination.7 Specifically, within the Report of Examination, examiners are
required to address a risk management question that asks examiners “are risk management
processes adequate in relation to and consistent with, the institution’s business plan, competitive
conditions, and proposed new activities or products?” This question necessitates that examiners
assess the bank’s ability to plan, which requires an assessment of the strategic planning and
budgeting process and of management’s ability to forecast and plan future operations. Examiners
are also expected, in part, to incorporate budgeted forecasts into their financial analysis of the
earnings component, as well as to perform proactive analysis within the other financial
component areas.

Available Corrective Measures

In the event of noncompliance with Orders and conditions, supervisory response can be taken in
the form of reason and moral suasion, informal agreements, and formal actions. Informal
agreements include obtaining a Bank Board Resolution or issuing a Memorandum of
Understanding. Formal actions include Section 8(a) Termination of Insurance; Section 8(b)
Cease and Desist Proceedings; Section 8(c) Temporary Cease and Desist Proceedings; and
Section 8(e) and 8(g) Suspension and Removal Procedures. In addition, Civil Money Penalties
may be sought, and Orders to correct safety and soundness deficiencies can be implemented.
Furthermore, the use of written agreements, capital directives, prompt corrective action
directives, and capital restoration plans may be employed to correct capital deficiencies. These
corrective actions allow the FDIC to provide an appropriate response based on the degree and
level of risk identified.




7
  A profit plan is an overall forecast of income for the period based on management’s decisions, intentions, and
estimation of economic conditions, funding strategies, asset mix, pricing, growth objectives, interest rate and
maturity mismatches, etc. Within the profit plan is a budget. The budget is essentially an expense control technique
where management decides how much is intended to be spent during the period on individual overhead expense
items.


                                                         5
Newly Chartered State Non-Member Institutions

The FDIC is the primary federal regulator for 588 institutions that were newly chartered during
the years of 1997 - 2001. The Atlanta, San Francisco, and Chicago Regional Offices had the
greatest number of new charter approvals during this time period. New charters within each
region are shown in the following table.

Table 1: Newly Chartered Institutions Supervised by the FDIC (Years 1997 – 2001)


                REGION                   1997       1998       1999   2000   2001   TOTALS
           Atlanta                         28         29         39     31    20      147
           Boston                           2          2          3      1     3       11
           Chicago                         16         13         29     19     8       85
           Dallas                           7          9          7      3    10       36
           Kansas City                     15         13         13     16     6       63
           Memphis                         21         13         22     13     9       78
           New York                         9         10         21      9     6       55
           San Francisco                   25         33         25     15    15      113
                   TOTALS                 123        122        159    107    77      588
           Source: Division of Supervision and Consumer Protection




RESULTS OF AUDIT

The procedures used by FDIC case managers and examiners for evaluating and addressing new
banks that have departed from initial business plan projections subsequent to their application for
approval from the FDIC are adequate. Examiners are taking steps to review and assess a bank’s
adherence to its approved business plan and/or subsequent strategic plans and budgets.
Furthermore, the FDIC has taken recent initiatives through DSC’s process redesigns and other
interagency activities to strengthen the process. FDIC regional and Washington office
management also have adequate preventive and corrective measures to help mitigate the risk of
deviations from approved business plans and strategies.

While the policies and practices used by the FDIC to evaluate banks that have departed from the
initial business plan projections are adequate, we found:

       •    Through the process of mergers, changes in control, and acquisitions, new banks can
            be established, in effect, without having to apply and be approved for federal deposit
            insurance. As a result, by statute, such institutions are subject to fewer factors as
            bases for disapproval.

       •    Amendments to Section 32 of the Federal Deposit Insurance Act provisions reduced
            regulatory controls over newly chartered banks and changes in control by eliminating
            the requirement that the primary federal regulator be notified of changes in bank


                                                           6
            management. The amendment eliminated the advance notice requirement for
            financial institutions that had been in existence less than 2 years and for those
            institutions that had undergone a change in control within the past 2 years. In these
            situations, the placement of inadequate management could disrupt a bank’s operations
            and adversely impact its financial condition.

In addition, based on our discussions with DSC officials in both the DSC Chicago and Atlanta
Regional Offices, we learned of procedures developed within each region related to new bank
oversight that may benefit other DSC regions. These “best practices” are described in
Appendix II.


FDIC MONITORING OF CHANGES IN NEWLY CHARTERED BANKS’ BUSINESS
PLANS

The procedures used by FDIC case managers and examiners for evaluating and addressing new
banks that have departed from initial business plan projections are adequate.

Our review did not evaluate the adequacy of the examiners’ and case managers’ analysis and
assessment of those business plans or of the applications and notices received. However, we did
review the supervisory oversight of the new banks during their first 3 years of operations. Our
review focused on:

    (1) the insurance application review process to determine whether there are preventive
        measures that can be implemented to limit the potential impact of unauthorized changes
        in business plans,
    (2) the examination processes used by FDIC case managers and examiners to evaluate banks
        that have departed from the initial business plan projections, and
    (3) the regulatory tools available to the FDIC to initiate effective corrective action when
        bank management materially deviates from an approved business plan or initiates an
        unsafe and unsound action.

Application Review Process

During the insurance application review process, regional and Washington office management
generally have adequate preventive measures that can be implemented to limit the potential
impact of unauthorized changes in business plans.

We determined that Orders for federal deposit insurance containing standard and nonstandard
conditions are employed by the FDIC when approving deposit insurance applications. In
addition, the FDIC uses written agreements8 at times for other types of applications. The
issuance of these Orders and written agreements allows the FDIC to employ proactive measures,
lessen the potential impact of unforeseen problems, and potentially help prevent serious
problems from developing. Furthermore, these documents help to mitigate risk in an institution

8
  A written agreement signed by bank management containing various operational obligations made to bank
regulators.


                                                       7
by limiting the conditions and circumstances that may lead to problems early-on in the
supervisory process.

The application review process generally allows adequate preventive measures to be
implemented. In addition to establishing formal application submission and review procedures,
application approvals can be processed with Orders and written agreements that are tailored to
the risks of the institution. Of seven FDIC-regulated Internet-only institutions reviewed, we
determined the following:

   •   four institutions submitted an application for federal deposit insurance and all four were
       approved with an accompanying Order;
   •   one institution was formulated through a change in control, and a notice of non-
       disapproval was granted with an accompanying written agreement; and
   •   two of the institutions were formulated through a Bank Holding Company acquisition and
       were approved through the Federal Reserve Board. The FDIC does not have the
       authority to request Orders or written agreements when the Federal Reserve Board is
       approving the transaction.

Based on our reviews of these transactions, we could not conclude on the usefulness or adequacy
of Orders and written agreements; however, the following example provides an illustration of the
FDIC’s supervision of an institution with a written agreement.

An Internet-only institution was formulated through a Notice of Acquisition of Control that was
processed through the FDIC. In processing the notice, the San Francisco Regional Office
obtained bank management’s commitment to adhere to the following commitments with respect
to the first 3 years of operation of “Internet Bank C”:

    • the beginning paid-in capital funds shall not be less than $3.5 million;
    • the Bank will maintain a Tier 1 Leverage Capital ratio of not less than 12 percent;
    • the Bank shall operate within the parameters of the submitted business plan and will
       obtain prior approval from the Regional Director in connection with any proposed major
       deviations or significant changes from the submitted plan; and
    • during the first 3 years after deposit insurance coverage is effective, the Bank shall obtain
       an annual audit of its financial statements by an independent public accountant.

Once regulatory non-objection was granted for the change in control, “Internet Bank C” began
business in June 2000, and a visitation was conducted as of October 31, 2000. However, due to
an inability to sustain banking operations, the holding company “Corporation C” requested
authorization to cease operations and to liquidate the assets of the bank. This request was
submitted in accordance with the terms of management’s written agreement that required bank
management to obtain prior approval for significant changes from the bank’s submitted business
plan. In short, the bank relinquished its state charter on January 26, 2001 and executed a
Stipulation and Consent to the Issuance of an Order of Termination of Insurance on January 29,
2001. The bank is no longer in operation. Management’s commitment to maintain a higher
level of capital and to obtain prior approval for any proposed significant changes appears to



                                                8
have helped limit potential loss to the insurance fund and ensure proactive supervisory
oversight.

An example of a state nonmember9 bank that was formulated through a Notice of Acquisition of
Control without an Order or written agreement is discussed later in this report under the
condition entitled Alternative Processes For Establishing New Banks (see page 12).

Examination Review Processes

The examination processes used by FDIC case managers and examiners to evaluate banks that
have departed from the initial business plan projections are adequate. Examiners do not provide
and policies do not require clear and distinct assurance within the Reports of Examination that
they have performed a comprehensive review of the bank’s business plans, and their comments
are generally restricted to discussing areas of concern and potential criticism. However, the lack
of such assurance and comments is mitigated by examiners reviewing and comparing actual
operations to forecasted projections while assessing earnings and management’s planning
process.

Of 24 new banks we reviewed from the Chicago Region, the FDIC examiners did not note any
significant departures from the approved business plans and/or subsequent strategic plans and
budgets. While examiners did identify institutions that exceeded or failed to meet growth and/or
income projections, only limited analysis and commentary was provided on the underlying
assumptions of the banks’ business plans and/or subsequent strategic plans and budgets.
Specifically, the Reports of Examination and Visitation Reports did not document the review or
the analysis performed on the approved business plans’ assumptions for the anticipated level and
volatility of interest rates; local economic conditions; funding strategies, including E-banking
initiatives; asset and liability mix and pricing; and interest rate and maturity mismatches. The
lack of consistency and detail of information found within the banks’ approved business plans
and/or subsequent strategic plans and budgets makes meaningful comparisons difficult to
formulate and limits the analysis possible by DSC examiners.

For example, one institution’s strategic plan stipulated, in part, that loans would be generated and
sold through loan participations and direct home equity loan originations, while the only budget
reference to the loan portfolio was on an aggregate basis with corresponding interest and yield
income data. Furthermore, the deposit mix was also limited to an aggregate budget reference to
Interest Bearing and Non-Interest Bearing Deposits with corresponding interest and expense
data. Due to the lack of detail that banks provide in business plans, any analysis or comparison
of asset and liability mix and pricing, funding strategies, and anticipated level and volatility of
interest rates would be limited. Despite these limitations, our concern is mitigated due to the
existence of other compensating measures within the examination process. In particular,
examiners conduct reviews of the component factors for Liquidity and for Sensitivity to Market
Risk. These reviews would address the banks’ performance in the above noted areas regardless
of whether those areas are compared and contrasted against the assumptions formulated within
the banks’ approved business plans and/or strategic plans and budgets.


9
    A state chartered institution that is not a member of the Federal Reserve System.


                                                            9
In six of the seven Internet-only banks reviewed, FDIC examiners identified significant
departures from the approved business plans and/or subsequent strategic plans and budgets.
These included eliminating brick and mortar10 operations, changing loan mixtures, and incurring
greater levels of potentially volatile deposits. The examiners generally identified business plan
deviations similar to those we identified during our independent review of the banks’ forecasted
financial positions in comparison to the actual financial positions. The banks’ actual financial
positions were derived from corresponding Call Reports and Uniform Bank Performance Reports
as of December 31, 2000.

Available Corrective Measures

We reviewed the six institutions that deviated from the initial projections in their business plans
and/or strategic plans and budgets. As the primary regulator, FDIC case managers and
examiners had adequate recourse to initiate effective corrective action when bank management
materially deviated from an approved business plan or initiated an unsafe and unsound action.

For example, in connection with an Application for Federal Deposit Insurance submitted to the
FDIC by “Internet Bank D,” the Chicago Regional Office undertook a comprehensive review of
the application and of the related business plan. In due course, approval was subject to eight
conditions set forth in an Order for federal deposit insurance. Two of these conditions were as
follows:

     •   during the first 3 years, the bank will maintain no less than an 8 percent Tier 1 capital
         ratio and
     •   the bank shall operate within the parameters of the submitted business plan. Any
         proposed major deviations or material changes from the submitted plan, in particular,
         changes pertaining to Internet operations, shall receive the prior written approval of the
         [FDIC] Regional Director.

However, during the first Safety and Soundness Examination, examiners discovered that bank
management had been operating under a revised business plan without regulatory approval. As
identified in the report of examination, the bank’s Board of Directors unanimously approved a
revised operating budget less than 1 month after the bank opened. According to the report of
examination, bank management officials stated that they considered the original plan outdated
and not realistic. In addition, the report stated that a revised plan was not submitted because
bank management believed that it would have further delayed the regulatory approval process.
As a result of this finding, the regional office requested the bank to submit a Safety and
Soundness Compliance Plan (SSCP) pursuant to Section 39 of the Federal Deposit Insurance
Act. The SSCP required the board to create a revised business plan with new financial
projections and to resolve to maintain a Tier 1 Capital to Total Assets ratio of 14 percent or
greater. The bank was also required to submit monthly financial statements and to meet with the
regional office on a quarterly basis. The SSCP was in place within approximately 4 months from
the initial point of discovery by the examiners.


10
  Brick and mortar- popular name for the fixed assets owned by a bank including branch offices, ATMs, and the
back office.


                                                       10
The case manager responsible for this bank stated that adequate avenues exist to pursue the level
of corrective action needed in a timely and effective manner. Furthermore, he indicated that if
management had not been cooperative, Section 39 would have allowed the FDIC to go to a direct
and immediate Cease and Desist Order.

Bank Business Plans Guidelines Adopted by the FDIC

When we initiated this audit, there were no written standards or guidelines available to new bank
charter applicants for preparing business plans. Our review of newly chartered banks’ business
plans maintained at the DSC Chicago Regional Office indicated that there were variances within
the levels of detail provided in business plans submitted to the FDIC during the application
process. The business plan provides important operational benchmarks against which the
regulators can measure and evaluate the newly chartered bank’s progress during the first 3
critical years of operation.

DSC has undertaken a process redesign initiative, which has involved in-depth assessments of
the FDIC’s supervision of state nonmember banks to identify procedures for improving
efficiency. Phase one of the DSC redesign initiative was divided into five broad working groups
and various subcommittees. The DSC New Bank Applications Subcommittee (New Bank
Subcommittee), comprised of FDIC DSC officials, was established to improve the FDIC
application process for deposit insurance. That group independently determined that a new
applicant’s “business plan should be the primary document in the application and we [the FDIC]
should provide detailed guidelines for the content and presentation of that business plan.” In its
report, the New Bank Subcommittee disclosed that it learned of an interagency effort to establish
guidelines, which produced similar results, and recommended that DSC fully endorse that effort.
Under Section 304 of the Riegle Community Development and Regulatory Improvement Act of
1994, the four federal banking agencies continue to develop forms that promote consistency and
uniformity in a manner that reduces federal regulatory burden on the banking industry.

The FDIC has worked closely with the Office of the Comptroller of the Currency, the Office of
Thrift Supervision, and the Conference of State Bank Supervisors to develop the Interagency
Charter and the Federal Deposit Insurance Application form and instructions. The Federal
Reserve Board did not participate in this project. The new application requires the submission of
a business plan and includes guidelines on preparing business plans. On March 11, 2002, a DSC
Regional Directors Memorandum was issued to adopt the new application form. Such
procedures require bank management to clearly state its goals and objectives, thereby enhancing
the regulators’ ability to oversee newly chartered institutions.

Conclusion

The procedures used by FDIC case managers and examiners for evaluating and addressing new
banks that have departed from initial business plan projections subsequent to their application for
approval from the FDIC are adequate. Examiners are taking steps to review and assess a bank’s
adherence to its approved business plan and/or subsequent strategic plans and budgets.
Furthermore, through DSC’s process redesign and other interagency activities, the FDIC has
taken initiatives to strengthen both the insurance application process and regulatory oversight
process.


                                                11
ALTERNATIVE PROCESSES FOR ESTABLISHING NEW BANKS

Through the process of mergers, acquisitions, and changes in control, new banks can be
established, in effect, without having to apply and be approved for federal deposit insurance. It
is possible for an existing institution to be acquired, dismantled, and replaced with a high-risk
operating structure. In certain transactions, the FDIC, as primary federal regulator, is not
authorized by statute to address the potential adverse effect on the deposit insurance funds when
the Federal Reserve Board is the approval agency of transactions involving state non-member
banks. The Bank Holding Company Act of 1956, section 3(a), requires, in part, that financial
institutions obtain the Federal Reserve Board’s prior approval for any action taken that causes a
bank to become a subsidiary of a bank holding company. The FDIC does not have an
interagency agreement with the Federal Reserve Board that allows the FDIC to provide
comments on the assessment factors in the context of holding company mergers, acquisitions,
and changes in control when the FDIC is the primary regulator of a bank. Institutions that
dramatically change business operations may, by statute, be subject to fewer factors as bases for
disapproval. As a result, these institutions may increase risks to the deposit insurance funds
because they are not subject to the regulatory application process established for granting deposit
insurance to new banks.

Application for Federal Deposit Insurance

Section 5 of the Federal Deposit Insurance (FDI) Act requires, in part, that any depository
institution engaged in the business of receiving deposits may become an insured depository
institution upon application to and examination by the FDIC and approval by the Board of
Directors. Section 5 also states that before approving an application for deposit insurance,
consideration shall be given to the seven evaluation factors enumerated in Section 6 of the FDI
Act (see page 2). In addition, the FDIC’s Statement of Policy on Applications for Deposit
Insurance outlines specific standards that the FDIC will apply when evaluating and acting on an
application for federal deposit insurance.

Notification of Change in Control

The Change in Bank Control Act of 1978, Title VI of the Financial Institutions Regulatory and
Interest Rate Control Act of 1978, amended Section 7(j) of the FDI Act. The amendments gave
federal banking agencies the authority to disapprove changes in control of insured banks and
bank holding companies. The appropriate agencies for approving changes in control are:

    •   the FDIC for insured state nonmember banks,
    •   the Federal Reserve Board for state member banks and bank holding companies,
    •   the Office of the Comptroller of the Currency for national banks, and
    •   the Office of Thrift Supervision for savings associations and savings and loan holding
         companies.




                                                12
The amendments to Section 7(j) of the FDI Act do not apply to a transaction that is subject to:

     •   Section 3 of the Bank Holding Company Act of 1956;
     •   Section 18(c) of this FDI Act; or
     •   Section 10 of the Home Owners’ Loan Act.11

For each proposed change in control, Section 7(j) of the FDI Act describes the factors that the
responsible federal banking agency is to consider. These factors include the financial condition,
competence, experience, and integrity of the acquiring person/persons and the effect of the
transaction on competition. In assessing the financial condition of the acquiring entity, the
federal banking agency should consider the acquiring entity’s financial condition if it might
jeopardize the financial stability of the bank or prejudice the interest of the depositors of the
bank. When processing a Summary of Investigation for a notice of acquisition of control, a
comment regarding the bank’s financial condition is required. Certain types of transactions are
exempt from prior notice requirements, such as those subject to Section 3 of the Bank Holding
Company Act, Section 10 of the Home Owners’ Loan Act, or Section 18 of the FDI Act, since
they are covered by existing regulatory approval procedures. Accordingly, changes in control
due to acquisitions by bank holding companies and changes in control of insured banks resulting
from mergers, consolidations, or other similar transactions are not covered by Section 7(j) of the
FDI Act.

Application for Bank Holding Company Transactions

The Bank Holding Company Act of 1956, section 3(a) requires, in part, that financial institutions
obtain the Federal Reserve Board’s prior approval:

     •   for any action that causes a company to become a bank holding company;
     •   for any action taken that causes a bank to become a subsidiary of a bank holding
         company;
     •   for any bank holding company to acquire direct or indirect ownership or control of any
         voting shares of any bank if, after such acquisition, such company will directly or
         indirectly own or control more than 5 percent of the voting shares of the bank;
     •   for any bank holding company or subsidiary, other than a bank, to acquire all or
         substantially all of the assets of a bank; or
     •   for any bank holding company to merge or consolidate with any other bank holding
         company.

For each acquisition, merger, or consolidation under this section, the Federal Reserve Board is to
consider the competitive factors, banking and community factors, supervisory factors, treatment
of certain bank stock loans, and managerial resources. The banking and community factors to be
considered include the financial and managerial resources and future prospects of the company
or companies and the banks concerned, and the convenience and needs of the community to be
served. The managerial resources to be considered of a company or bank shall include

11
   Section 10 of the Home Owners’ Loan Act covers transactions applicable to Savings and Loan Holding Company
transactions similar to Section 3 of the Bank Holding Company Act of 1956.


                                                     13
consideration of competence, experience, and integrity of the officers, directors, and principal
shareholders of the company or bank.

Application for Mergers

Section 18(c) of the FDI Act provides, in part, that insured depository institutions may merge
with any other insured depository institution with the prior written approval of the responsible
agency, which shall be:

   •   The FDIC, if the acquiring, assuming, or resulting institution is to be a state nonmember
       insured bank.
   •   The Office of the Comptroller of the Currency, if the acquiring, assuming, or resulting
       institution is to be a national or a district bank.
   •   The Federal Reserve Board, if the acquiring, assuming, or resulting institution is to be a
       state member bank.
   •   The Office of Thrift Supervision, if the acquiring, assuming, or resulting institution is to
       be a savings association.

The section also requires the FDIC’s approval before an insured depository institution may
merge, consolidate, assume liability to pay deposits, or transfer assets in consideration of the
assumption of deposits with a noninsured bank or institution. For each proposed merger
transaction, the responsible agency is directed to take into consideration the financial and
managerial resources and future prospects of the existing and proposed institutions, and the
convenience and needs of the community to be served.

The FDIC’s Statement of Policy on Bank Merger Transactions outlines specific standards that
the FDIC will apply when evaluating and acting on proposed merger transactions. In particular,
the FDIC will consider the following statutory factors under Section 18(c):

   •   The extent of existing competition between and among the merging institutions, other
       depository institutions, and other providers of similar or equivalent services in the
       relevant product markets within the relevant geographic markets.
   •   Prudential factors, including the existing institutions’ overall condition, that considers
       capital, management, and earnings.
   •   The convenience and needs of the community, to which the proposed merger transaction
       is likely to benefit the general public.
   •   The expenses for professional or other services rendered by present or prospective board
       members, major shareholders, or other insiders.

Comparison of Application Processes

The deposit insurance application process is, by statute, generally more comprehensive than
processes for other kinds of applications or notices. In particular, the approval process for:




                                                 14
• Mergers - does not require the appropriate federal banking agency to consider the
  transaction’s possible impact on the deposit insurance funds, and the process does not
  require an initial Tier 1 Capital to Assets Leverage Ratio of 8 percent or more.
• Change in Control - does not require the appropriate federal banking agency to consider the
  financial stability of the depository institution, except as it relates to the financial condition
  of the acquiring person/entity. In addition, the process does not require an initial Tier 1
  Capital to Assets Leverage Ratio of 8 percent or more. However, an appropriate federal
  banking agency may object to any proposed change in control notice if it finds that the
  transaction would result in an adverse effect on the deposit insurance funds.
• Bank Holding Company and Financial Holding Company Formations and Acquisitions -
  does not require the appropriate federal banking agency to consider the transaction’s
  possible impact on the deposit insurance funds, and the process does not require an initial
  Tier 1 Capital to Assets Leverage Ratio of 8 percent or more. If the applicant is proposing to
  use acquisition debt, then a less stringent level of capital is required. The subsidiary bank
  must maintain a ratio of Gross Capital to Assets of 8 percent or more.

A detailed chart in Appendix III compares the more comprehensive deposit insurance application
process to the change in control application process and comparable factors under the bank
holding company application process.

The Formation of “Internet Bank A”

“Internet Bank A” is an actual example of a state non-member financial institution that was
acquired and used to create, in effect, a new financial institution. In June 1999, “Internet Bank
A,” formerly “State Bank B,” was sold by “State Bank B’s” holding company to “Financial
Corporation A.” Only the stock of the bank was exchanged in the transaction, and the bank’s
holding company and subsidiaries were not part of the agreement. The transaction was
structured as a change of control with a bank holding company purchasing a one-branch bank.
The Federal Reserve Board reviewed and approved the application by “Financial Corporation A”
to become a bank holding company and the change of control transaction to acquire “State Bank
B.” The bank was to be run as a combined entity with brick and mortar operations and with an
Internet presence. However, 1 year after the change of control, management ceased the brick
and mortar operations, liquidated all assets associated with the original bank, and released all the
previous bank managers. The financial institution was converted into an Internet-only bank.
Due to the complete change in business operations, management oversight, and customer focus,
this institution essentially became a new bank.

This transaction was not subject to the regulatory application process established for granting
deposit insurance. As a result, by statute, the institution was subject to fewer factors as bases for
disapproval. In particular, the institution was able to maintain a lower capital level and was
provided a shorter statutory processing time period than the new bank application process.
“Internet Bank A” formulated an agreement with the governing State Banking Department to
maintain a minimum Tier 1 Leverage Capital ratio of 7 percent, while statutory guidelines for
new banks require a minimum Tier 1 Leverage Capital ratio of 8 percent or higher. Furthermore,
of the seven FDIC Internet-only banks we analyzed, two of them - “Internet Bank B” and




                                                 15
“Internet Bank C” - provided management commitments to maintain a Tier 1 Leverage Capital
ratio of 10 percent and 12 percent, respectively.

“Internet Bank A” was not subject to the FDIC’s involvement in approving the application or
having an Order for insurance put in place. The lack of an Order prevented the issuance of
standard and nonstandard conditions for federal deposit insurance by the FDIC. The following is
a usual nonstandard condition to Orders for federal deposit insurance:

       The bank shall operate within the parameters of the business plan submitted to the FDIC.
       Furthermore, during the first 3 years of operations, the bank shall notify the Regional
       Director of any proposed major deviation or material change from the submitted plan 60
       days before consummation of the change.

In addition, the institution was not subject to the FDIC’s initial Report of Investigation and to a
visitation 6 months after obtaining deposit insurance, which would have been required for a new
bank application for federal deposit insurance. If “Financial Corporation A” did not also have to
submit an application to become a bank holding company, it would have avoided an in-depth
review of “Internet Bank A’s” financial condition, except as it relates to the financial condition
of the acquiring person/entity. While the processing and handling of an Interagency Notice of
Change in Control may parallel the procedures related to applications for deposit insurance, new
branches, relocations, etc., at least one fundamental difference is present. In the case of statutory
applications, the burden of making a case in support of a proposal falls on the applicant; in
considering notices, the FDIC exercises a veto, with the burden of sustaining disapproval falling
on the FDIC. Accordingly, in evaluating Notices, the FDIC need not find favorably on the
various factors; the absence of unfavorable findings implies approval.

Conclusion

“Internet Bank A” is an example of just one transaction, and each transaction is unique.
Accordingly, judgment is needed to assess the terms of each application and/or notice in
conjunction with management’s stated objectives and business plans. However, when a merger,
acquisition, or change in control essentially creates a new bank, such institutions are subject, by
statute, to fewer factors as bases for disapproval. Specifically, in certain cases, the FDIC, as
primary federal regulator, is not authorized by statute to consider the potential adverse effect on
the deposit insurance funds when the Federal Reserve Board is the approval agency for
transactions involving state non-member banks.

At our exit conference, management indicated that for the past several years the Corporation has
pursued amendments to the Bank Merger Act and Bank Holding Company Act that would
require the primary federal regulators to consider risk to the insurance fund when approving
mergers, acquisitions, or changes in control. To date, the amendments have not been included in
any legislation passed or being considered by the Congress. Management further stated that,
absent such amendments, it would be difficult for the Corporation to achieve working
agreements with the Federal Reserve Board to address the issues we have raised because doing
so may be considered contrary to existing statutes and the prevailing opinions of other regulators,
Congress, and the Administration.



                                                 16
Recommendation

We recommend that the Director, DSC:

(1) Continue pursuit of amendments to the Bank Merger Act and Bank Holding Company Act
    that would require each approving agency’s consideration of the potentially adverse effects
    on the insurance funds of any proposed bank merger or holding company formation or
    acquisition. DSC should consider including amendments that would enable the Corporation
    to be involved in evaluating the potential risks to the insurance funds when the FDIC is the
    primary regulator of a bank but is not the approving agency of the related holding company
    merger, acquisition, or change in control transaction.


STATUTORY AMENDMENTS IMPACTING REGULATORY OVERSIGHT

Amendments to Section 32 of the FDI Act provisions reduced regulatory controls over newly
chartered banks and changes in control by eliminating the prior notification requirement for
changes in bank management. The Economic Growth and Regulatory Paperwork Reduction Act
of 1996 (EGRPR Act) amended Section 32 of the FDI Act, which requires advanced notification
to regulators when appointing directors and officers in certain institutions. The amendment
eliminated the advance notice requirement for financial institutions that had been in existence
less than 2 years and for those institutions that had undergone a change in control within the past
2 years. In these situations, the placement of inadequate management could disrupt a bank’s
operations and adversely impact its financial condition.

FIRREA added Section 32 to the FDI Act, which is implemented by Section 303.100 of the
FDIC Rules and Regulations. This law requires insured state nonmember banks to give the FDIC
written notice at least 30 days prior to the effective date of any addition or replacement of a
member of the board of directors, employing any person as a senior executive officer of the
bank, or changing the responsibilities of any senior executive officer so that the person would
assume a different senior executive officer position, if:

   •   the bank is not in compliance with all minimum capital requirements applicable to the
       bank as determined on the basis of the bank's most recent report of condition or report of
       examination;
   •   the bank is in troubled condition; or
   •   the FDIC determines, in connection with its review of a capital restoration plan required
       under section 38(e)(2) of the FDI Act or otherwise, that such notice is appropriate.

The EGRPR Act subsequently amended Section 32 by eliminating the prior notice requirement
for institutions and holding companies that have been chartered for less than 2 years and that
have undergone a change in control within the preceding 2 years.

The DSC New Bank Subcommittee, which was formed during phase one of DSC’s process
redesign initiative, recommended that the FDIC should include a standard condition in the Order
granting deposit insurance, that would reinstate Section 32 requirements. The subcommittee’s


                                                17
conclusion was that “regulatory oversight would be enhanced and risk to the fund would be
lower for new institutions.” The New Bank Subcommittee also evaluated potential barriers to
this action, which include that reinstating Section 32 requirements would increase the regulatory
burden on newly insured institutions and Congress may not support a standard condition since
the EGRPR Act removed prior notification.

The New Bank Subcommittee also proposed an alternate solution to include a nonstandard
condition in insurance application Orders. This is a similar approach to that taken by DSC in the
April 7, 2000 Regional Directors Memorandum entitled Nonstandard Condition to Orders for
FDIC Insurance which clarified procedures to be followed in situations where new banks
deviated materially from their approved business plans. Standard conditions in an Order for
insurance may be imposed on institutions, while nonstandard conditions must receive an
agreement from the applicant in writing. According to the New Bank Subcommittee report, the
OCC has “regulation 914” notices that require prior notice of changes in senior executive
officers or board directors.

Notices of Change in Control

As we discussed previously, new banks can be established through various regulatory and
financial transactions that allow existing insured depository institutions to transfer their charters
and insurance to others.

The amendment of Section 32 through the EGRPR Act eliminated the advance notice
requirement for changes in management in financial institutions that had undergone a change in
control within the past 2 years. While the New Bank Subcommittee has recommended the
reinstatement of Section 32 procedures for newly chartered institutions, there still remains a
regulatory oversight weakness for those institutions undergoing a change in control. There
appear to be no policies or procedures that encourage the use of and provide guidance on issuing
nonstandard commitments for changes in control. However, the regulator can request the
controlling financial institution or bank holding company to provide a written agreement
regarding such issues as prior notification of changes in business plans or maintaining minimal
Tier 1 Leverage Capital levels at the request of the regulator. We observed such a written
agreement involving a change in control approved through the DSC San Francisco Region.
When the FDIC is the primary regulator responsible for approving a notice of change in control,
there is more leverage for the FDIC to obtain written assurances from bank management.

Conclusion

In the absence of regulatory authority, the OIG agrees with the findings of DSC’s New Bank
Subcommittee, in that the regulatory oversight would be enhanced and the risk to the fund would
be lower for new institutions if Section 32 requirements were restored. In our view, the
regulatory oversight of new institutions formed through changes in control would be
strengthened if Section 32 requirements were restored.




                                                  18
Recommendation

We recommend that the Director, DSC:

(2) Request DSC to further study the potential risks and recommendations developed by DSC’s
    New Bank Subcommittee regarding amendments made to Section 32 of the FDI Act and
    consider the need for an interagency effort to reinstate controls over newly chartered banks
    and changes in control through restoration of the prior notification requirements for changes
    in bank management.


CORPORATION COMMENTS AND OIG EVALUATION


On November 14, 2002, the DSC Director provided a written response to the draft report. The
response is presented in Appendix IV to this report. DSC proposed an acceptable alternative
action for our first recommendation and concurred with the second recommendation of the
report.

As an alternative action for recommendation 1, DSC stated that it would consider pursuit of
amendments to the Bank Merger Act and Bank Holding Company Act in consultation with the
other federal agencies and will refer the recommendation to the Federal Financial Institutions
Examination Council’s (FFIEC) Task Force on Supervision. DSC intends to make this referral
by March 31, 2003.

DSC concurred with recommendation 2 and stated that it would conduct a study to determine the
need for prior notification requirements for changes in bank management which were removed
through provisions of the Economic Growth and Regulatory Paperwork Reduction Act of 1996.
The study will be completed by March 31, 2003. Both recommendations are resolved but will
remain undispositioned and open until we have determined that agreed-to corrective actions have
been implemented and are effective.

In response to several Regional best practices presented in this report, DSC has already shared
the best practices, along with the entire draft report, with the DSC Regional Directors.




                                                19
                                                                                   APPENDIX I
OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to assess the procedures used by DSC case managers and examiners for
evaluating and addressing new banks that have departed from initial business plan projections
subsequent to their application for approval from the FDIC. We also observed insurance risk
exposures related to the transfer of bank charters and expanded our scope to address this
situation. Our review was limited to newly chartered financial institutions and Internet banks for
which the FDIC is the primary federal regulator.

To accomplish our objective and expanded scope, we:

   •   reviewed a sample of the Visitation Reports and Safety and Soundness Reports of
       Examination (ROE) completed by DSC on new bank operations during the years of 1997,
       1998, 1999, and 2000;
   •   reviewed bank applications, notifications, and related business plans;
   •   reviewed Reports of Investigations and Summary of Investigation reports;
   •   reviewed applicable laws, regulations, and statements of policies;
   •   reviewed and analyzed Uniform Bank Performance Reports and Call Reports;
   •   reviewed relevant sections of the DSC Manual of Examination Policies and Case
       Managers Procedures Manual;
   •   interviewed DSC Washington senior management; and
   •   interviewed DSC Chicago and Atlanta management.

We selected all seven Internet-only banks for which the FDIC is the primary federal regulator
and a judgmental sample of 24 newly chartered banks from the Chicago Region for which the
FDIC is the primary federal regulator. For all banks selected, we reviewed the FDIC’s
assessment of the banks’ performance and noted the identification of any deviations from the
approved business plans and the actions taken by DSC. Furthermore, for the seven Internet
banks selected, we also reviewed the banks’ business plans and independently analyzed current
financial data to determine if there were any deviations from actual performance. We obtained
our sample data from the FDIC’s Bank Information Tracking System (BITS) through the Forest
and Trees Application System, and from the FDIC’s former Division of Research and Statistics.

We limited our assessment of DSC’s system of internal controls to reviewing the policies and
procedures for assessing institutions’ adherence to business plans and implementation of those
policies and procedures by examiners. We did not test internal controls over these processes.
Further, we did not (1) review Government Performance and Results Act reporting, (2) test for
fraud or illegal acts, (3) test for compliance with laws and regulations, or (4) determine the
reliability of computer-processed data obtained from the FDIC’s computerized systems.

We performed fieldwork in DSC headquarters and the Chicago and Atlanta regional offices. The
audit fieldwork was conducted from January 2001 until July 2002. Due to a request by the
Chairman of the Senate Committee on Banking, Housing, and Urban Affairs to review the failure
of Superior Bank, critical audit team members were re-assigned, and this review was suspended
for part of 2001 and 2002. Subsequently, we conducted additional work to update our analysis


                                                20
and conclusions. We conducted our audit in accordance with generally accepted government
auditing standards.




                                             21
                                                                                 APPENDIX II

BEST PRACTICES

Based on our discussions with DSC officials in both the DSC Atlanta and Chicago Regional
Offices, we learned of procedures developed within each region related to new bank oversight
that may benefit other DSC regions. These practices are listed below by each DSC Region.

       Atlanta

       •   Case managers are involved during the early stages of the bank application process,
           starting with the investigations of institutions applying for deposit insurance. This
           practice helps to establish familiarity and maintain continuity in the case managers’
           supervision of these institutions.
       •   DSC regional management develops and participates in an outreach program referred
           to as “Directors’ College.” These are regularly scheduled events held with bank
           directors throughout DSC Atlanta’s jurisdiction. It is a good opportunity for FDIC
           management to familiarize new bank management with the regulatory oversight
           process and general expectations.

       Chicago

       •   A “New Bank Committee” was formed to review the region’s procedures for
           receiving and approving new bank applications. The group recommended
           improvements to more proactively identify and manage emerging risks associated
           with de novo banks. Recommendations were to:

           1. Centralize the processing of all new bank applications into an Applications Unit
              (AU) so that the number of regional office staff reviewing new bank applications
              is limited. The smaller group is more likely to readily identify and consistently
              address emerging risks in new banks.

           2. Require quarterly attestation and supporting documentation from each bank/thrift
              relative to compliance with the business plan submitted in the application. Assign
              initial monitoring of compliance with applicable business plans to the AU.

           3. Formally incorporate the AU’s ongoing assessment of emerging risks and the
              findings of the Regional Office Management Information Group’s biannual
              Review of Newly Insured Institutions Report directly into the application process
              to make sure that these concerns are specifically and adequately addressed in all
              new bank reviews.




                                               22
                                                                          APPENDIX III
      Comparison of Statutory Evaluation Factors for New Bank Applications for Deposit
                       Insurance and Change in Control Applications


    Application for Federal Deposit    Comparablea Factors Considered          Comparable Factors Considered
     Insurance under FDI Act §5         by Primary Federal Regulator-            by Federal Reserve Board-
                                       Change in Control under FDI Act          Acquisition of Bank Shares or
                                                    §7(j)                        Assets under BHCA §3(a)

The financial history and condition    §7(j)(7)(C); 12 CFR 308.111(c), to     §3(c)(2); 12 CFR 225.13(b)(1)
of the depository institution.         some degree.
The adequacy of the depository         §7(j)(7)(C); 12 CFR 308.111(c), to     §3(c)(2); 12 CFR 225.13(b)(1)
institution’s capital structure.       some degree.
The future earnings prospects of the   No comparable factor.                  §3(c)(2); 12 CFR 225.13(b)(1)
depository institution.
The general character and fitness of   §7(j)(7)(D); 12 CFR 308.111(d)         §3(c)(5); 12 CFR 225.13(b)(2)
the management of the depository
institution.
The risk presented by such             §7(j)(7)(F); 12 CFR 308.111(f)         No comparable factor.
depository institution to the Bank
Insurance Fund or the Savings
Association Insurance Fund.
The convenience and needs of the       §7(j)(7)(B); 12 CFR 308.111(b)         §3(c)(1)(B); 12 CFR 225.13(b)(3)
community to be served by such
depository institution.
Whether the depository institution’s   No comparable factor.                  No comparable factor.
corporate powers are consistent with
the purposes of the Act.
             Other Factors
Regulatory capital requirement: Tier   Tier 1 leverage capital ratio of not   For creation of small bank holding
1 leverage capital ratio of not less   less than 3% for institutions with a   companies and acquisitions of
than 8% for the first 3 years of       CAMELS rating of 1 and not less        additional banks or companies by
operation.                             than 4% for all other institutions.    bank holding companies, each
                                                                              insured depository subsidiary is
                                                                              expected to be well-capitalized,
                                                                              which for bank holding companies
                                                                              with consolidated assets under $150
                                                                              million, “well capitalized” means
                                                                              that the bank holding company
                                                                              maintains a total risk-based capital
                                                                              ratio of 10 percent or greater and a
                                                                              tier 1 risk based capital ratio of 6
                                                                              percent or greater, and it is not
                                                                              subject to any written agreement,
                                                                              order, capital directive, or prompt
                                                                              corrective action directive issued by
                                                                              the Board. For bank holding
                                                                              companies with assets of $150
                                                                              million or more, the Board has
                                                                              established a minimum ratio of Tier
a
 “Comparable” indicates that some factors may be bases for disapproval of applications, while others are
considered.


                                                        23
 Application for Federal Deposit       Comparablea Factors Considered           Comparable Factors Considered
  Insurance under FDI Act §5            by Primary Federal Regulator-             by Federal Reserve Board-
                                       Change in Control under FDI Act           Acquisition of Bank Shares or
                                                    §7(j)                         Assets under BHCA §3(a)

                                                                               1 capital to total assets of 3 percent
                                                                               for strong bank holding companies
                                                                               and for bank holding companies that
                                                                               have implemented the Board's risk-
                                                                               based capital measure for market
                                                                               risk. For all other bank holding
                                                                               companies, the minimum ratio of
                                                                               Tier 1 capital to total assets is 4
                                                                               percent.
             Procedures
Statutory processing time limitation   Time limitation of 60 days unless       An application or notice shall be
for standard applications: Not to      extended, not to exceed 180 days.       deemed approved if the Board fails
exceed 1 year.                                                                 to act on the application or notice
                                                                               within 91 calendar days after the
                                                                               date of submission to the Board of
                                                                               the complete record on the
                                                                               application.

Regional Office time frame for         Regional Office time frame for          Application approved by local
processing guideline: 120 days from    processing guideline: 45 days from      Federal Reserve bank within 30 days
receipt.                               receipt.                                of acceptance of application for
                                                                               processing, then sent to Board for
                                                                               action within 60 days.
Expedited processing available.        Expedited processing available.         Expedited processing available for
                                                                               well-capitalized and well-run bank
                                                                               holding companies.
Incomplete applications not            §7(j)(7)(E)                             §3(c)(3)(A)
accepted.
           Burden of Proof
The burden of making a case in         The FDIC exercises a veto, with a       The Board exercises a veto, with a
support of a proposal falls on the     burden of sustaining disapproval        burden of sustaining disapproval.
applicant.                             falling on the FDIC. Accordingly,
                                       the FDIC does not need to find
                                       favorably on the various factors; the
                                       absence of unfavorable findings
                                       approximates tacit approval.




                                                        24
                            APPENDIX IV

CORPORATION COMMENTS




                       25
26
